<html>
<title> - GAZA AFTER THE WAR: WHAT CAN BE BUILT ON THE WRECKAGE?</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
         GAZA AFTER THE WAR: WHAT CAN BE BUILT ON THE WRECKAGE?

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                     THE MIDDLE EAST AND SOUTH ASIA

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                           FEBRUARY 12, 2009

                               __________

                            Serial No. 111-1

                               __________

        Printed for the use of the Committee on Foreign Affairs


 Available via the World Wide Web: http://www.foreignaffairs.house.gov/

                                 ______

                  U.S. GOVERNMENT PRINTING OFFICE
47-420                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="2b4c5b446b485e585f434e475b0548444605">[email&#160;protected]</a>  


                      COMMITTEE ON FOREIGN AFFAIRS

                 HOWARD L. BERMAN, California, Chairman
GARY L. ACKERMAN, New York           ILEANA ROS-LEHTINEN, Florida
ENI F.H. FALEOMAVAEGA, American      CHRISTOPHER H. SMITH, New Jersey
    Samoa                            DAN BURTON, Indiana
DONALD M. PAYNE, New Jersey          ELTON GALLEGLY, California
BRAD SHERMAN, California             DANA ROHRABACHER, California
ROBERT WEXLER, Florida               DONALD A. MANZULLO, Illinois
ELIOT L. ENGEL, New York             EDWARD R. ROYCE, California
BILL DELAHUNT, Massachusetts         RON PAUL, Texas
GREGORY W. MEEKS, New York           JEFF FLAKE, Arizona
DIANE E. WATSON,                     MIKE PENCE, Indiana
    California<greek-l>              JOE WILSON, South Carolina
ADAM SMITH,                          JOHN BOOZMAN, Arkansas
    Washington deg.<greek-l>Until    J. GRESHAM BARRETT, South Carolina
    2/9/09 deg.                      CONNIE MACK, Florida
RUSS CARNAHAN, Missouri              JEFF FORTENBERRY, Nebraska
ALBIO SIRES, New Jersey              MICHAEL T. McCAUL, Texas
GERALD E. CONNOLLY, Virginia         TED POE, Texas
MICHAEL E. McMAHON, New York         BOB INGLIS, South Carolina
JOHN S. TANNER, Tennessee            GUS BILIRAKIS, Florida
GENE GREEN, Texas
SHEILA JACKSON LEE, Texas
BARBARA LEE, California
SHELLEY BERKLEY, Nevada
JOSEPH CROWLEY, New York
MIKE ROSS, Arkansas
BRAD MILLER, North Carolina
DAVID SCOTT, Georgia
JIM COSTA, California
KEITH ELLISON, Minnesota
GABRIELLE GIFFORDS, Arizona
RON KLEIN, Florida
VACANT<greek-l>As of 2/10/09 deg.
                   Richard J. Kessler, Staff Director
                Yleem Poblete, Republican Staff Director
                                 ------                                

             Subcommittee on the Middle East and South Asia

                  GARY L. ACKERMAN, New York, Chairman
RUSS CARNAHAN, Missouri              DAN BURTON, Indiana
MICHAEL E. McMAHON, New York         MIKE PENCE, Indiana
SHEILA JACKSON LEE, Texas            JOE WILSON, South Carolina
SHELLEY BERKLEY, Nevada              J. GRESHAM BARRETT, South Carolina
JOSEPH CROWLEY, New York             JEFF FORTENBERRY, Nebraska
MIKE ROSS, Arkansas                  MICHAEL T. McCAUL, Texas
JIM COSTA, California                BOB INGLIS, South Carolina
KEITH ELLISON, Minnesota             GUS BILIRAKIS, Florida
RON KLEIN, Florida                   DANA ROHRABACHER, California
BRAD SHERMAN, California             EDWARD R. ROYCE, California
ROBERT WEXLER, Florida
ELIOT L. ENGEL, New York<greek-l>
ADAM SMITH, 
    Washington deg.<greek-l>Until 
    2/9/09 deg.
GERALD E. CONNOLLY, Virginia
GENE GREEN, Texas
VACANT<greek-l>As of 2/10/09 deg.
                David Adams, Subcommittee Staff Director
         Howard Diamond, Subcommittee Professional Staff Member
           Mark Walker, Republican Professional Staff Member
                   Dalis Blumenfeld, Staff Associate


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Mr. David Makovsky, Director, Project on the Middle East Peace 
  Process, The Washington Institute for Near East Policy.........    15
Ziad J. Asali, M.D., President & Founder, The American Task Force 
  on Palestine...................................................    23
Michele Dunne, Ph.D., Senior Associate, Carnegie Endowment for 
  International Peace............................................    76
Ms. Danielle Pletka, Vice President, Foreign and Defense Policy 
  Studies, American Enterprise Institute for Public Policy 
  Research.......................................................    82

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Gary L. Ackerman, a Representative in Congress from 
  the State of New York, and Chairman, Subcommittee on the Middle 
  East and South Asia: Prepared statement........................     4
The Honorable Dan Burton, a Representative in Congress from the 
  State of Indiana: Prepared statement...........................     9
Mr. David Makovsky: Prepared statement...........................    18
Ziad J. Asali, M.D.: Prepared statement..........................    25
Michele Dunne, Ph.D.: Prepared statement.........................    79
Ms. Danielle Pletka: Prepared statement..........................    85

                                APPENDIX

Hearing notice...................................................   110
Minutes of hearing...............................................   111
Statement from the American-Arab Anti-Discrimination Committee...   112


         GAZA AFTER THE WAR: WHAT CAN BE BUILT ON THE WRECKAGE?

                              ----------                              


                      THURSDAY, FEBRUARY 12, 2009

              House of Representatives,    
                Subcommittee on the Middle East    
                                        and South Asia,    
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:43 a.m. in room 
2172, Rayburn House Office Building, Hon. Gary L. Ackerman 
(chairman of the subcommittee) presiding.
    Mr. Ackerman. The subcommittee will come to order.
    I want to begin by welcoming our new ranking member, the 
gentleman from Indiana, Dan Burton------
    Mr. Burton. Thank you, Mr. Chairman.
    Mr. Ackerman [continuing]. Whom I have had the pleasure of 
working with before. I especially welcome his dedication and 
enthusiasm and the verve that he brings to all of his work.
    Mr. Burton. Thank you, sir.
    Mr. Ackerman. Pleasure working with you again.
    On our side I would like to acknowledge one of our new 
members who is with us today, Gerald E. Connolly from Virginia, 
and welcome him to the subcommittee.
    I would like to start with a quote, as follows:

          ``Today the subcommittee had hoped to examine those 
        realistic and productive measures that the parties 
        directly and indirectly involved with the Palestinian-
        Israeli conflict might have taken to restore a sense of 
        hope, and maybe even make some material progress toward 
        peace. But in the light of,'' I will insert here the 
        words what has occurred, ``I am not sure what is left 
        to discuss.''

    The quote continues:

          ``Over the past 6 years there have been many plans 
        and many envoys. And contrary to popular opinion, there 
        has not been a deficit of attention, merely a deficit 
        in performance. Commitments made to the United States 
        or between the parties have often been honored only in 
        the breach. The timing was never right. What was 
        promised was never delivered. It was always a 
        provocation, an incident, an upcoming election, a 
        crisis, an attack. And so it is again today.''

That was a quote.
    If we strike the words that I inserted, what occurred, and 
insert the words Gaza conflict, these sentences which I read at 
this subcommittee's first hearing in 2007 are, to my dismay, 
equally applicable today.
    It only looks like we are going in circles. In fact, we are 
spiraling downward. I don't know where the bottom is, but I 
know it is there, and I know we are getting closer every day. 
It will hit with shattering force when, through malice and 
terror, through shallow calculation and venal self-interest, 
through short-sightedness and through political cowardice, the 
two-state solution to the Israeli-Palestinian conflict is 
finally rendered impossible.
    The downward pressure comes from terrorism in the march of 
settlements. It comes from the firing of rockets and the 
perpetration of settler pogroms. It comes in daily images of 
destruction and the constant reiteration that they only 
understand the language of force.
    It comes in the form of a political party that is always 
just a few months away from reform, and in the form of 
government coalitions whose chief purpose it is to avoid new 
elections. It comes in the form of promises that bloodshed is 
what God desires, and declarations that dirt and stones mean 
more than human life. It comes from tunnels in Gaza, and yes, 
from diggings in Jerusalem, as well.
    Let me not be misunderstood. There is no moral equivalence 
between these acts, but they are all part of the same 
destructive dynamic.
    Since the end of the Clinton administration, the basic 
outlines of the peace agreement have been clear. And in fact, 
in its waning days, the government of Ehud Olmert, like other 
departing Israeli governments, further closed the gaps, and 
added even more detail. Except now there are three sides, and 
one of those sides is looking for a very different outcome than 
the other two.
    Hamas is the odd man out. I don't know what to do about 
that. I don't know how you make peace with half of a wannabe 
country. I don't know how you sign an agreement with an entity 
who's legal, political, and administrative bona fides are all 
in question.
    Which brings us to Gaza, where so many of the 
contradictions of this conflict come into focus. Start with 
Hamas, a terrorist organization, an entity beyond the pale. 
They are the enemy, and no one can talk to them until they 
accept the quartet's conditions of recognizing Israel, 
repudiating violence, and accepting the PLO's agreements with 
Israel.
    Except for years Israel has been talking to Hamas through 
Egypt, and directly to Hamas through prisoners in Israeli 
jails. And when the IDF was in Gaza in force, with reserves 
building up outside, the Israelis announced that the 
destruction of Hamas was absolutely not their goal. Hamas is a 
deadly, vicious, implacable enemy, but somehow one that they 
left in place.
    For their part, the Fatah-led PA blasted Israel for 
violence, while quietly hoping that the IDF would cripple Hamas 
and pave the way for the Palestinian Authority's return to 
Gaza. Likewise, the PA has continuously denounced Hamas for the 
2007 coup in Gaza, and then intermittently engaged in direct 
talks to form a unity government with it.
    And Hamas itself, the great paragon of ideological purity, 
insists in Arabic that its goal is the complete liberation of 
Palestine, which is to say the elimination of the State of 
Israel; while in English it declares that Israeli withdrawal to 
the 1967 borders would be sufficient for long-term, but not 
permanent, peace.
    One real bright spot in all the chaos is the work of the 
U.S. Security Coordinator, Lt. Gen. Keith Dayton, who, without 
fanfare and very little money, has helped stand up a force of 
several hundred competent and disciplined Palestinian security 
forces, trained in Jordan and deployed successfully to major 
cities in the West Bank. These mostly young Palestinians have 
restored law and order in Jenin, in Nablus, and are finally 
starting to put some authority back into the Palestinian 
Authority, which for years has been leaking the stuff like a 
bucket with no bottom.
    I think we have learned from our own awful experience in 
Iraq that between politics and security, security has to come 
first. So what can be made of the new and growing security 
dynamic in the West Bank remains to be seen. A lot will depend 
on whether Israel, in a break from years of habit, can 
recognize its own self-interest in the success of this 
Palestinian enterprise.
    And even if that happens, and I think we really must try 
hard to help that process along, how developments in the West 
Bank can be used to reestablish a connection with Gaza is far 
from clear. And it is in Gaza that the United States, Israel, 
the PA, and Arab states have to start coming up with answers.
    There are pressing humanitarian needs and a reconstruction 
vacuum that will surely be filled by someone, either for good 
or ill. Hamas is still in charge there. And depending on what 
polls you read and which people you talk to, is either badly 
damaged or fully in command. The war has either alienated them 
from the public, or powerfully reinforced their leadership. 
Hamas has either suffered a severe blow, or has benefitted 
immensely from merely surviving the Israeli onslaught.
    The fact that so basic a question can still be in doubt 
should make all of us a little more circumspect in our 
assertions, and a little less confident in our understanding of 
this conflict.
    Fortunately, we have with us today a panel with real 
expertise in the politics of Israel, the Palestinian Authority, 
and Egypt, to help us understand where the interests of the 
parties lie, and what equities they most need to protect in 
coming to grips with the future of Gaza.
    It is our job to start answering these same questions for 
ourselves. What is it that we want? How can we achieve it? What 
has worked, and what has to be done differently? What 
assumptions have we made that haven't been borne out in fact? 
We can start today by learning from our distinguished 
witnesses.
    I turn now to my friend, partner, Dan Burton.
    [The prepared statement of Mr. Ackerman 
follows:]<greek-l>Ackerman deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Burton. Thank you, Mr. Chairman. It is nice to be your 
partner. We have had our differences over the years on the 
floor and in the committee. But one thing on which we have 
always agreed has been the Middle Eastern problems; and in 
particular, the survivability of our good friend, Israel.
    I have a statement I would like to submit for the record, 
but I would like to make a few comments, if I may.
    When Ariel Sharon decided to give Gaza away and they 
started destroying the settlements that were in Gaza, I, for 
one, was very concerned about that, because I thought there 
were no guarantees of Israel's right to exist from the parties 
involved. And I was concerned that Hezbollah would take 
advantage, or Hamas would take advantage of the situation in 
Gaza as soon as things took place.
    And as I watched those people being removed from their 
homes and their homes being bulldozed, it was a very 
disheartening situation. But I had great confidence in Ariel 
Sharon, and I felt like his decisions were very well thought 
out, and that this was probably a step toward a lasting peace.
    Unfortunately, that was not the case. The minute Gaza 
became independent, Hamas started moving very rapidly by 
getting weapons in from Iran through Syria, all kinds of 
rockets and other equipment, and started their attacks on 
Israel.
    My concern today, and what I would like to get from the 
panelists, Mr. Chairman, is what they believe the long-term 
view is from their perspective on the situation in Gaza, what 
the long-term view is from their perspective on Iran. Will Iran 
start reducing or working with the rest of the world in trying 
to stop the weapons from getting into Gaza and into Lebanon and 
Hezbollah up there? And can we expect any real movement toward 
a lasting peace?
    We have been talking about this for as long as I have been 
in Congress. I think you and I have been in Congress 26 years, 
and we come back to the same position year after year after 
year, where there is a determination by Iran, by Syria, by 
Hamas and Hezbollah to destroy Israel and deny their right to 
exist.
    So I would like to ask the panelists today if they see any 
light at the end of the tunnel, if they think the ending of the 
hostilities that have taken place will lead to a lasting peace 
in Gaza, and what their prognostication is about as far as Iran 
is concerned.
    The administration has indicated they want to try to open 
up a dialogue with Iran to try to find out if there is a 
pathway to peace. But unless there is a guarantee of Israel's 
right to exist, I don't think there is going to be any 
solutions to the problems over there.
    And so if there are administration people here today, Mr. 
Chairman, I would say I hope they will be very careful when 
they discuss these issues with the Iranians, to make sure that 
the number one question at every meeting is will you finally 
agree to Israel's right to exist, and try to work out a 
peaceful solution to these problems over there.
    So there is an awful lot of things that are going on that 
we would like to talk about today. I know I have covered quite 
a bit of the waterfront with my opening remarks. But these are 
all inter-related, so I would like to hear what your 
perspective is on all of these issues.
    And in particular, in closing, I would like to thank Danni 
Pletka for being here. We worked together when she worked for 
Jesse Helms on a number of issues. She is a very bright lady, 
and we are really happy to have you here today. You are now 
with the American Enterprise Institute, a very fine group. And 
I look forward to working with you in the future.
    Mr. Chairman, I look forward to working with you and your 
colleagues on your side of the aisle, and finding, hopefully, a 
solution to some of these problems in the Middle East.
    I yield back my time.
    Mr. Ackerman. Thank you very much. And without objection, 
your full statement will be put in the record, as it will for 
all other members.
    [The prepared statement of Mr. Burton 
follows:]<greek-l>Burton deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Ackerman. I sent out a notice to each of the members 
yesterday--I hope everybody saw it--that we would allow opening 
statements, but we want to keep them to an opening comment, 
maybe for 1 minute apiece. And we will do that as we usually do 
on the subcommittee, in order of the member's appearance at the 
committee.
    Mr. Wexler, if you would like.
    Mr. Wexler. Thank you very much, Mr. Chairman. I just want 
to commend you for assembling an extraordinary group today. Mr. 
Makovsky is someone I have relied upon and continue to rely 
upon, and I don't think there is any more knowledgeable voice 
in this country in terms of the Middle East and the Israeli-
Palestinian conflict.
    Dr. Asali, as well, I think is a uniquely powerful and 
constructive both advocate and resource for the United States 
Congress. And we all--many of us--rely upon him greatly. And 
despite Mr. Burton's wonderful comments, Ms. Pletka, we too 
welcome you and Dr. Dunne, as well.
    Mr. Ackerman. Mr. Royce.
    Mr. Royce. Thank you, Mr. Chairman. As one of our witnesses 
points out here today, many believe that there is a magical 
solution to the Israel-Palestine problem.
    If only we can arrange the diplomatic talks a certain way, 
there is this feeling that it will be solved. And we have a new 
special envoy, Sen. Mitchell, who is going to spend 
considerable energy working this region. He will be working and 
reaching for peace.
    But the idea that some type of grand bargain might be 
celebrated in the Rose Garden is very far off. Sen. Mitchell 
must contend with the fact that there are those in the region, 
Hamas and others, who do not even recognize Israel's existence. 
Israel must be replaced with an Islamic state, according to 
Hamas.
    So this is a region of the world plagued with a growing 
extremism that will frustrate peace initiatives, and won't be 
easily or quickly reversed.
    This hearing asks what can be built on the wreckage. I have 
yet to see the firm foundation upon which structures must be 
built, but that does not mean we don't try.
    Thank you, Mr. Chairman, for this hearing.
    Mr. Ackerman. The chair would like to recognize the 
presence of the chair of the full committee, Howard Berman, and 
ask the chairman if he would like to use his prerogative to--
the chairman has waived.
    We go next to Mr. Connolly.
    Mr. Connolly. Thank you, Mr. Chairman, and thank you for 
convening this hearing today.
    I think that it is imperative we understand the lessons 
learned from the recent Gaza conflict. Only with a more durable 
cease-fire and a commitment from Hamas to forswear violence can 
we address the long-term humanitarian needs of the people of 
the Gaza Strip.
    I, for one, look to this week's Israeli election as 
actually an encouraging sign in the effort for renewing the 
peace process. While the closeness of the vote may present some 
challenges, the edge appears to lie with those who vigorously 
want to pursue the peace process.
    When taken together, the election results, the current 
cease-fire, no matter how tenuous, and the commitment of 
President Obama to invest U.S. capital by engaging personally 
in the peace process, as well as his appointment of Special 
Envoy George Mitchell, are encouraging signs that we can broker 
a long-term solution in the interest of all parties.
    I welcome today's witnesses and look forward to hearing 
from them about their recommendations for moving forward in a 
positive direction.
    Thank you, Mr. Chairman.
    Mr. Ackerman. Thank you very much. Mr. Ellison.
    Mr. Ellison. Thank you, Mr. Chairman, for your indulgence 
here. I have got an abundance of paper in front of me.
    Mr. Chairman, first of all I would like to thank you for 
hosting the subcommittee hearing today. It is a privilege and 
an honor to be here, and to be a member of this very important 
subcommittee.
    As we all know, this is a very critical time to be hearing 
about the critical topic of Gaza. I am glad that we are here to 
help move forward on the necessary rehabilitation and 
reconstruction efforts in Gaza.
    I take this opportunity to welcome all speakers and 
witnesses to the House Committee on Foreign Affairs. And I look 
forward to hearing your testimony, as well as the discussion 
and exchange of views on conflicts in Gaza, the reconstruction 
and Middle East peace.
    And also, Mr. Chairman, I would ask unanimous consent. I 
was approached by an organization called the American Arab 
Anti-Discrimination Committee who would like to submit a 
statement, and was not able to do so. And so I ask unanimous 
consent that their statement be allowed to be put into the 
record.
    Mr. Ackerman. Without objection.<greek-l>
    [The information referred to was inserted into the 
appendix]No material followed in original deg.
    <greek-l>Mr. Ackerman.  deg.Thank you very much. And Mr. 
Ellison, we welcome you to the committee, as well.
    Ms. Berkley, welcome to the subcommittee.
    Ms. Berkley. Thank you, Mr. Chairman. It is a pleasure to 
be back. And I also want to thank you for holding this hearing.
    I was part of a Congressional delegation that was among the 
last civilians to leave the Gaza when the Israelis left. As a 
Jew, it was very difficult for me to watch other Jews being 
forcibly removed from their homes, many of whom had lived in 
the Gaza for three generations. But it was done by the Israelis 
in the interest of peace, and with the hope that the 
Palestinians would be able to demonstrate to the world that 
they were capable of self-governance.
    We were hopeful, I was certainly hopeful, that schools 
would be built, infrastructure would be created, and that the 
Palestinians would take control of their own lives.
    Unfortunately, the result has been quite different. Hamas 
has taken over, a terrorist organization that continues not 
only to terrorize Israel by raining rockets on innocent Israeli 
civilians from the Gaza, but raining terror on their own 
people.
    It would be my hope, especially in the aftermath of the 
last action by the Israelis, precipitated by the continuous 
launching of rockets into Israel, that the Palestinian people 
would see that Hamas is not their future; and making a just and 
lasting peace with Israel, and recognizing Israel's right to 
exist, and securing the borders would be in the best interest 
of both people. And that would be my hope.
    But I have become, I must say, Mr. Chairman, very cynical 
over the last few years, and hopeful that we will see a new 
day. But I am very doubtful that that will happen. And I am 
anxious to hear our witnesses talk about this issue.
    Thank you.
    Mr. Ackerman. Thank you. Mr. Klein.
    Mr. Klein. Thank you, Mr. Chairman, and thank you, Mr. 
Burton, for calling this meeting today. And thank you to the 
guests who will present to us.
    The Gaza Strip has obviously been a problem for many, many 
years, both when Egypt was much more involved, when Israel has 
been involved, and obviously in its own sense right now. And of 
course, the movement of weapons and missiles and rockets into 
the Gaza Strip from a number of, a number of means of getting 
through there has been a problem which has continued to present 
more difficulties.
    Now that the general fighting has stopped at the level it 
was a couple weeks ago, obviously there are still rockets being 
fired, and this is a very fragile situation.
    I think we acknowledge that Egypt, who has been helpful, is 
in a position where they can continue to help limit the amount 
of weapons that come in through that area. Egypt does not want 
an unstable or destabilized Hamas or region to flow into its 
areas, as well. The presenters today can comment on the role 
that Egypt continues to play, and of course, we encourage their 
continued cooperation as we go forward.
    Thank you.
    Mr. Ackerman. Thank you. Mr. Carnahan.
    Mr. Carnahan. Thank you, Mr. Chairman and Ranking Member 
Burton. It is great to be back in this new session on this 
committee. I look forward to working with you on the timely and 
substantive work of this committee, and really getting it right 
in Gaza is central to really making progress in the Middle 
East. And so I thank the panel for being here, and look forward 
to hearing from you.
    Mr. Ackerman. Thank you. We also want to welcome Mr. 
McMahon, a new Member to the Congress, new member to the 
committee and subcommittee. Would you like a minute, if you 
want to take that now? You are recognized.
    Mr. McMahon. Thank you, Chairman Ackerman. And I thank the 
subcommittee for allowing me to speak today, my first hearing 
here, first time in.
    I would like to thank our witnesses for sharing their 
knowledge with us here today, and I hope to share the 
conclusions with my constituents back home.
    Clearly, the humanitarian situation in Gaza is very grave, 
yet Hamas still continues to exacerbate the humanitarian 
situation by using innocent civilians to leverage power over 
this broken region to advance their political agenda.
    I think that most of my colleagues in this room would agree 
that as the premiere nation allocating assistance to Gaza, the 
U.S. is currently in quite a predicament. If Hamas increases 
influence through circumventing the assistance and manipulating 
civilians, what is to be expected for the future of our sister 
nation, Israel, and for the region as a whole?
    Mr. Chairman, my constituents, both Arab and Jewish alike, 
are concerned for their families in the region, and cannot bear 
for their relatives to be treated as worthless pawns.
    Despite the severity of the situation, I remain hopeful 
that a secure peace agreement that embraces the two-state 
solution can be reached through the leadership of President 
Barack Obama and Sen. Mitchell. And I hope through efforts here 
today, we can bring humanitarian relief to all those who suffer 
in the region.
    I hope that we reaffirm our commitment that the only future 
for Israel and Palestine is a path to peace.
    Thank you, Mr. Chairman. I yield the remainder of my time.
    Mr. Ackerman. Thank you very much. We will now turn to our 
witnesses.
    We are joined today by a truly first-rate group, each of 
whom brings years of hands-on expertise and analytical 
experience to this hearing.
    David Makovsky is a senior fellow and director of the 
Washington Institute's Project on the Middle East Peace 
Process. He is also an adjunct lecturer in Middle Eastern 
Studies at Johns Hopkins University in the Paul H. Nitze School 
of Advanced International Studies.
    Before joining the Washington Institute, Mr. Makovsky 
covered the peace process from 1989 to 2000 as executive editor 
of the Jerusalem Post and as diplomatic correspondent for 
Haaretz. Now a contributing editor to <greek-l>the  deg.U.S. 
News and World Report, he served 11 years as the magazine's 
special Jerusalem correspondent.
    Dr. Ziad Asali is president and founder of the American 
Task Force on Palestine, a nonprofit, non-partisan organization 
established in 2003, and based in Washington, DC. Dr. Asali was 
born in Jerusalem, and received his M.D. from the American 
University of Beirut Medical School in 1967. He completed his 
residency in Salt Lake City, Utah, and then practiced medicine 
in Jerusalem before returning to the U.S. in 1973.
    Dr. Asali is also founder and chairman of the American 
Charities for Palestine.
    Michele Dunne is a senior associate at the Carnegie 
Endowment for International Peace. She also edits the Arab 
Reform Bulletin, a monthly online journal exploring political, 
economic, and human rights developments in Arab countries. A 
specialist in the Middle East at the U.S. Department of State 
from 1986 to 2003, Dr. Dunne holds a Ph.D. in Arabic language 
from Georgetown University.
    Danielle Pletka is vice president of foreign and defense 
policy at the American Enterprise Institute. Before joining 
AEI, she served for 10 years as a senior professional staff 
member for the Near East and South Asia on the U.S. Senate 
Committee on Foreign Relations.
    In addition to her work at AEI, she was also a member of 
the congressionally-mandated U.S. Institute of Peace Task Force 
on the United Nations.
    We will begin with Dr. Makovsky.

   STATEMENT OF MR. DAVID MAKOVSKY, DIRECTOR, PROJECT ON THE 
 MIDDLE EAST PEACE PROCESS, THE WASHINGTON INSTITUTE FOR NEAR 
                          EAST POLICY

    Mr. Makovsky. Thank you, Mr. Chairman, Mr. Ranking Member, 
distinguished members of the committee. It is an honor to be 
with you today.
    Until post-conflict arrangements are settled, it is 
premature to reach a definitive conclusion on the recent war in 
Gaza. However, it is possible to make a preliminary assessment.
    Israel set forward one major objective for itself at the 
start of this war; specifically, to avert Hamas rocket fire 
aimed at its southern cities. The objective of this war was not 
the toppling of Hamas.
    Israel has also sought to restore the deterrents that it 
felt that it lost in the inconclusive 2006 war against 
Hezbollah and Lebanon. As a result, in contrast to the 2006 
war, Israel's objectives were defined more carefully.
    One of Israel's main tactics for ensuring that its cities 
are not the targets of Hamas rockets is to target the myriad of 
smuggling tunnels along the Egypt-Gaza border that Hamas uses 
to rearm itself. As such, Israel's success in shutting down or 
destroying these tunnels will also be part of the post-war 
evaluation.
    First, some background to this Gaza conflict. As was noted 
here, Israel removed all of its settlers and left Gaza in 2005. 
Yet, Hamas rocket fire has been relentless, especially after 
Hamas ascended to power in 2006.
    By mid-2008, Israel and Hamas have been observing a cease-
fire for 6 months, which expired on December 19. Israel made 
clear that it wanted to extend the cease-fire, yet Hamas fired 
200 rockets at Israeli cities.
    There are those who argue that Hamas wanted to use rocket 
fire as a means of changing the terms of the cease-fire. 
However, Israel felt it had no choice but military action.
    Hamas believed that by taking up positions in densely 
populated parts of the Gaza Strip in order to fire 
indiscriminately at Israeli cities, it would be immune to 
retaliation. This was not the case.
    Israel embarked on what is called Operation Cast Lead, a 
campaign that went on for less than a month, first by air and 
then by ground, primarily in northern Gaza. While Hamas has 
sought to claim victory in the aftermath of the fighting, these 
claims are largely hollow. Its leadership was in hiding 
throughout the fighting.
    Hamas did not offer serious opposition on the ground, a 
fact that will make it difficult for the organization to 
credibly claim that it defended Gaza, let alone scored a 
victory.
    In contrast, Hezbollah, in 2006, offered substantial 
resistance and determined opposition to Israeli ground forces, 
employing the full range of its capabilities.
    According to the Palestinian-run Jerusalem media 
communications center polling unit, only 35% of Palestinians in 
Gaza believe Hamas' assertion of victory.
    Israel succeeded in degrading Hamas' ability to fire 
rockets at Israeli cities. Military analysts widely believe 
that the Israeli army was much better prepared for this 
conflict on nearly every level--planning, training, equipment, 
and force readiness--than it was in 2006.
    Israel sustained far fewer casualties and injuries than it 
did in 2006. Arab casualties were lower in Gaza than Lebanon; 
but as I will point to later in my remarks, they were still 
considerable.
    Although many thoughts Israel's deterrence was eroded in 
the 2006 war, Israeli officials state that it was restored 
after the current fighting with Hamas. Hamas is responsible for 
the Gaza population and manner that is not true for Hezbollah 
and Lebanon; therefore, there is hope that this deterrence will 
be sustained over time.
    It is noteworthy that Hezbollah, Syria, and Iran were 
either unwilling or unable to assist Hamas during the conflict, 
excluding rhetorical support. This should give Hamas pause 
about the value of its alliances. Hezbollah did not open up a 
second front, contrary to speculation that it might, and this 
might be a sign that Israel did increase its deterrence during 
the 2006 war, which would be significant.
    While Iran interpreted the inconclusive outcome of 2006 as 
a victory for its proxy, Hezbollah, and for Tehran's own 
regional influence, Iran will have to view the Gaza conflict as 
a setback. It could not believe that it gained any momentum 
with this episode.
    Moreover, divisions surfaced within the Arab world. Egypt 
and Saudi Arabia boycotted an aborted Arab summit that they 
viewed as supportive of Hamas, and, implicitly, Iran. Egyptian 
leadership was willing to withstand demonstrations and 
criticism, and still refused to support Hamas' demand that it 
gain control of a key access point to Gaza. All these 
developments were negative from Hamas' perspective.
    The Gaza war brought fresh international focus to the 
tunnel network between Egyptian Sinai and Gaza. The issue of 
border security has become increasingly important for Israel, 
particularly since the network is crucial to Hamas' ability to 
rearm.
    During the recent conflict, Hamas fired 122-millimeter 
ground artillery rockets, a type of rocket that is designed by 
Iran to fit through the tunnels by hitting Gadera, 20 miles 
south of Tel Aviv. It fired many rockets, as well. One million 
Israelis are now within this rocket's range, including the 
largest city in southern Israel, Beersheba. If more 
sophisticated, longer-range rockets are smuggled into Gaza, 
Israel's international airport could come within range within 
the very near future.
    For Israel, this international focus on the tunnel network 
is necessary, albeit not sufficient. International focus is not 
synonymous with action.
    For example, in 2006 the U.N. Security Council Resolution 
1701 addressed the issue of arms smuggling for Hezbollah by 
calling on an embargo on weapons to Hezbollah militias, 
Lebanese militias. This provision, however, has never been 
enforced. There are estimates that Hezbollah has in fact 
tripled the number of its rockets since 2006.
    Therefore, a more practical approach was being tried now. 
Toward the end of this war, the United States and Israel signed 
a memorandum of understanding, an MOU, that authorizes United 
States assistance to Egypt to halt the flow of arms. This 
international assistance could potentially involve the U.S. 
Navy and NATO, elements to help police international waters, 
since the grads are believed to come from transit points in 
Iran, Somalia, Eritrea and Yemen.
    Mr. Ackerman. I am going to have to ask you to start to sum 
up.
    Mr. Makovsky. Okay. The question will be: Will Egypt indeed 
recognize that its national security is at stake? Because this 
is not a favor to Israel, it clearly has an interest in the 
Palestinian Authority being stronger, and also weakening its 
own opposition at home, the Muslim brotherhood. And it clearly 
does not want to see Iran gain, as President Mubarak made clear 
in a speech the other day.
    If Egypt acts, this will be the optimal situation. I fear 
if Egypt does not act, Israel will go back into southern Gaza, 
occupy the Philadelphi Corridor, as it is known, and on its 
own, try to explode these tunnels.
    To avoid this scenario, Egypt is critical, but so is the 
MFO, the multi-national forces of the Sinai. It was put in 
place to, as an early-warning system against possible Egyptian 
attack against Israel, given the wars in the sixties and 
seventies. But given the new threats, maybe we should think of 
an enhanced role for the MFO, given the problem of tunnels. 
Like monitoring some of the main roads that traverse the Sinai; 
there are very few of them.
    The U.S. Army Corps of Engineers has been helpful.
    Mr. Ackerman. You are going to need to conclude.
    Mr. Makovsky. Okay. I would just conclude here by saying 
the question here of Gaza reconstruction is something that we 
will discuss. I am happy in the Q and A to discuss this, as 
well.
    It is clear to me that the pivot point is the Palestinian 
Authority being in Gaza, and making that difference. The Arab 
world could provide assistance, but they could also provide 
assistance by delegitimizing Hamas.
    Mr. Ackerman. Thank you.
    Mr. Makovsky. I promise to stay in these Israeli elections 
and what next steps will be taken by Mitchell, but I will do 
that in the Q and A.
    Thank you very much.
    [The prepared statement of Mr. Makovsky 
follows:]<greek-l>Makovsky deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Ackerman. Thank you. Dr. Asali. Push your button on.

  STATEMENT OF ZIAD J. ASALI, M.D., PRESIDENT & FOUNDER, THE 
                AMERICAN TASK FORCE ON PALESTINE

    Dr. Asali. As requested by your staff, allow me to state 
for the record that the recently signed memorandum of 
understanding mentioned in my bio between American Charities 
for Palestine and USAID is only for the purposes of vetting 
recipients of donations made by ACP. Neither I nor ACP has 
received any further gain.
    Now I will start my testimony.
    Mr. Ackerman. We will restart your time.
    Dr. Asali. Thank you very much, and I will not go beyond.
    Mr. Ackerman. We will allow you the same latitude.
    Dr. Asali. Thank you. Mr. Chairman, I wish to thank you and 
the subcommittee's esteemed members for the privilege to 
testify before you and summarize my 51-page written testimony.
    Although Hamas launched reckless and provocative rocket 
attacks against Israel, Gazans are not Hamas. They are not 
combatants, and should not be punished. As a human being and as 
a physician, I was horrified by the tragedy that has befallen 
the people of Gaza by Israel's disproportionate use of force.
    After an estimated 1,400 deaths and 5,400 injuries, 80% of 
surviving Gazans now depend on food aid, and 51,000 need 
shelter. Their suffering must come to an immediate stop.
    Gaza lies in ruins, but Hamas still controls Gaza.
    Mr. Ackerman. I am afraid we cannot have any approbation, 
approval or disapproval from the audience. Everybody is welcome 
to be here, so we want to just constrain our approval or 
disapproval of any of the witnesses, or even any of the 
members. You can criticize us someplace else, but not in this 
room. Thank you.
    Dr. Asali. Thank you. Restart the clock for me? [Laughter.]
    Mr. Ackerman. We will not subtract our comments.
    Dr. Asali. Gaza lies in ruins, but Hamas still controls 
Gaza. And the responsible policies of the PA and other U.S.-
Arab allies have been undermined.
    Mr. Chairman, the challenge now is providing essential aid 
and reconstruction to the people of Gaza without bolstering 
Hamas. Opening the crossings and implementing the Access and 
Movement Agreement of 2005 is essential.
    Immediate humanitarian assistance should proceed unimpeded 
and without politicization, to deliver food, shelter, medical, 
fuel, and educational supplies, as well as power and 
sanitation. It should be provided and expanded through existing 
agencies, including UNRWA and international NGOs. If Hamas 
again attempts to interfere, it risks suspension of aid.
    Reconstruction, however, takes time, and requires a new 
international mechanism that can ensure entry of construction 
materials into Gaza, secure from political interference. And 
any party blocking the reconstruction process must publicly 
bear the blame.
    This mechanism should be structured to quickly grant 
contracts, vet recipients, and have security and logistical 
components. This must be coordinated by the new U.S. Special 
Envoy to the Middle East and composed of the Quartet, the PA, 
and the indispensable Egypt.
    Private reconstruction should be managed through direct 
bank transfers from the PA to beneficiaries, as proposed by 
Prime Minister Fayyad, which will benefit 21,000 property 
owners at a cost of $600 million to $800 million.
    The Palestinian partner for reconstruction can only be the 
PA under President Abbas. A non-partisan Palestinian national 
accord government could help, but it must meet the Quartet 
conditions, exert security control, and have the specific 
mandate of overseeing reconstruction and preparing for 
elections.
    Mr. Chairman, there is no military solution to this 
conflict. And until it is resolved through two states, a secure 
Israel alongside a viable Palestine freed from occupation, 
further violence is inevitable.
    Unless progress is made on advancing Palestinian statehood 
and quality of life through negotiations, and unless the PA and 
Fatah implement serious and genuine reform, the PA will 
continue to weaken. Without progress, anything rebuilt will be 
destroyed. Our own actions can either foster hope or feed hate.
    Permanent status negotiations must continue, but cannot be 
sustained without expanding the space of freedom in Palestinian 
cities, and in delivering tangible improvements in access, 
mobility, and economic opportunities.
    Settlements entrench the occupation, and are the most 
pressing political and logistical impediment to peace. All 
hopes for progress depend on an immediate settlement freeze, 
and this is where U.S. leadership must be asserted to preserve 
the credibility of the two-state solution.
    U.S. assistance must be intensified to help the PA further 
develop the new professional security system, which has proven 
its effectiveness under very difficult circumstances. It also 
has to develop the fledgling economy unimpeded by unreasonable 
restrictions, and pursue good governance reform, transparency, 
and the rule of law.
    A devastated Gaza, a stagnant West Bank, and a moribund 
peace process would benefit extremism. The losers then will be 
Palestinians, Israel, and the cause of peace, and most 
importantly, our own national interest.
    Thank you very much.
    [The prepared statement of Dr. Asali 
follows:]<greek-l>Asali deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Ackerman. Thank you, Dr. Asali.
    Dr. Dunne.

 STATEMENT OF MICHELE DUNNE, PH.D., SENIOR ASSOCIATE, CARNEGIE 
               ENDOWMENT FOR INTERNATIONAL PEACE

    Ms. Dunne. Thank you, Mr. Chairman and members of the 
subcommittee for the privilege of testifying before you. I am 
going to be discussing the role of Egypt in this crisis. And I 
am sure the subcommittee members are aware of Egypt's mediation 
effort, and the elements of a cease-fire proposal that Egypt 
has been putting forward.
    The basic elements are a mutually agreed-to cease-fire 
between Israel and Hamas, as opposed to the unilateral cease-
fire that exists now; and the duration of that would probably 
be something on the order of 18 months, renewable. The 
reopening of crossings to Gaza, with some limitations as to 
what could enter Gaza. A prisoner exchange that would involve 
perhaps the release of Israeli hostage Gilad Shalit. And talks 
between Fatah and Hamas.
    And I would like to note that there are indications in the 
press that those talks are already beginning in Cairo, between 
Fatah and Hamas representatives.
    So what are the Egyptian interests that inform Egypt's 
actions here? I would say in the current crisis, Egypt has 
demonstrated that it has two principal interests related to 
Gaza. One of them is that Egypt wants to avoid taking on 
responsibility for the 1.5 million Palestinians living in Gaza. 
And second, Egypt is trying, through its mediation efforts, to 
restore some role for the Palestinian Authority under the 
leadership of President Mahmoud Abbas, to the extent that is 
possible.
    Now, regarding Egypt's taking on responsibility for the 
Palestinians, there are at least two ways this could happen, 
and President Hosni Mubarak is going to try to avoid either one 
of them.
    One possibility is that if there were a humanitarian crisis 
in Gaza, tens or hundreds of thousands of Palestinians could 
flood across the border into the Sinai, and stay on a semi-
permanent basis. And as I am sure the members of the 
subcommittee are aware, this is not an idle fear; it actually 
happened a year ago, in January 2008, that hundreds of 
thousands of Palestinians crossed the border illegally, and it 
took Egypt about 2 weeks to get them to leave and to 
reestablish control over its international border.
    Then there is this question of whether Egypt would take on 
some sort of a role in Gaza itself, perhaps administering Gaza 
the way Egypt did between 1948 and 1967. Now, this is not the 
official policy of Israel or anyone else; no one is asking 
Egypt to do this. But the suggestion that this might be a 
possibility has caused a lot of concern in Egypt.
    Now, President Mubarak will resist this for a couple of 
reasons. First of all, he realizes that governing hundreds of 
thousands of Palestinians, either in Sinai or in Gaza itself, 
would be a thankless task for Egypt.
    But he also has reason to be concerned about stability in 
his own country, should one or other of these situations be 
forced on Egypt. Sinai is already a troubled area, populated 
largely by Bedouin with little loyalty to the Egyptian state, 
and terrorists have carried out several large-scale attacks 
there in recent years.
    The introduction of hundreds of thousands of Palestinian 
refugees there, perhaps including militants from Hamas, 
Palestinian-Islamic Jihad, would undoubtedly increase tension 
and the danger of terrorism there.
    Inside Egypt itself, although many Egyptians have called on 
their government to extend greater diplomatic and humanitarian 
support to Gaza, actual Egyptian rule in Gaza, or rule of many 
Palestinian refugees in Sinai, would very much enflame anti-
government sentiment in Egypt. And as I am sure the members of 
the subcommittee are aware, there is significant anti-
government sentiment in Egypt today. Protests of one kind or 
another, mostly about domestic, economic, and human rights 
issues, have become a daily phenomenon in Egypt.
    And the Muslim Brotherhood that is the primary opposition 
movement in Egypt supports Hamas fervently, and has been 
organizing protests against the government. There has developed 
in Egypt a sort of tradition, since the outbreak of the second 
Palestinian uprising in 2000, of protests that begin in support 
of Palestinians and criticizing Israel, and often the United 
States, and then those protests turn against Mubarak and call 
for an end to his rule.
    Now, the second goal that I mentioned for Egypt in this 
Gaza crisis is the desire to restore the Palestinian Authority 
to a role in Gaza to the extent that that is feasible. Egypt 
takes a realist approach to Hamas. It would prefer that Hamas 
not rule Gaza, but acknowledges that at this point, it is 
impossible to ignore the group.
    So one constant in Egyptian mediation efforts has been to 
insist, for example, on enforcing the terms of the 2005 Rafah 
Agreement, which treats the Palestinian Authority as the 
responsible authority on the Gaza side of the border. And Egypt 
would like to see the Palestinian Authority returned there, at 
a minimum to the border with Egypt.
    Egypt has also pressed Hamas to agree to resume 
reconciliation talks with Fatah, which were going on under 
Egyptian auspices for some time, were broken off in November 
2008, and seem to be perhaps resuming now.
    Regarding the arms smuggling issue through Rafah, Egyptian 
officials are undoubtedly aware that there is a spotlight on 
the issue now. David Makovsky mentioned that there has been 
technical assistance from the United States through the U.S. 
Army Corps of Engineers, a $23-million program that was funded 
out of United States annual military assistance to Egypt.
    This has now been implemented in only the last week, and 
there is actual technical monitoring now by the Egyptians, with 
this assistance from the United States, of tunneling and 
underground movements through the Rafah area. And Egypt should 
be able, with this tool, to significantly improve its 
performance in preventing arms trafficking into Gaza.
    There is a report, by the way, in the Jerusalem Post today 
that talks about that, and says that there is significantly 
stepped-up Egyptian enforcement.
    Mr. Ackerman. You are going to have to start to summarize.
    Ms. Dunne. Okay. The aftermath of the Gaza crisis does 
afford some opportunities for the United States and Egypt to 
strengthen their ties, which have been strained in recent 
years. United States and Egyptian goals regarding Gaza are 
largely consonant.
    Over the longer term, however, I would like to note that it 
will be necessary for Egypt and the United States to reach an 
understanding on progress on human and civil rights inside 
Egypt as well, in order for the partnership to really flourish.
    Thank you.
    [The prepared statement of Ms. Dunne 
follows:]<greek-l>Dunne deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Ackerman. Thank you, Dr. Dunne.
    Ms. Pletka.

 STATEMENT OF MS. DANIELLE PLETKA, VICE PRESIDENT, FOREIGN AND 
   DEFENSE POLICY STUDIES, AMERICAN ENTERPRISE INSTITUTE FOR 
                     PUBLIC POLICY RESEARCH

    Ms. Pletka. Thank you, Mr. Chairman and Mr. Burton, for 
inviting me today. I am going to summarize my remarks, and you 
will put my full statement in the record.
    Mr. Royce was kind enough to quote my statement--I am glad 
somebody read it--in advance. I suggested that part of the 
problem historically has been that each time a new 
administration comes to the Israeli-Palestinian problem, they 
assume that there is some magical peace that has not been 
fulfilled, some individual who will make it all work right; 
some process that we have not embraced.
    And the truth is, of course, there simply is no magic to 
any of this, and we should stop thinking about the problem in 
those ways.
    I would also add that the measure that we have historically 
used to discuss progress between the Israelis and the 
Palestinians has almost entirely been self-referential. We 
always talk about what we have done, and how we have made 
progress, and how everybody is at the table. And we really 
haven't measured the Palestinians' progress.
    I would argue that perhaps we have paid more attention to 
the Israelis, but no attention to Palestinian progress on the 
ground. And when I say Palestinian progress on the ground, I do 
not mean the shape of their government or the stability of 
their government; I mean the progress of individual 
Palestinians, the general welfare of the Palestinian people. 
And in fact, the Palestinian people as a whole have made very 
little appreciable progress. To the contrary, there has been a 
great decline in standards of living, and a great flight by 
Palestinians from the West Bank in Gaza, not just Gaza I would 
underscore, but also from the West Bank.
    Nor has the cause of peace made any great strides forward 
in recent years, including when President Bush turned his 
attention to it, when President Clinton put a great deal of 
personal effort and attention toward it.
    There are some who are going to suggest now, in the 
aftermath of this Gaza war, that the fact that Egypt, Saudi 
Arabia, and others have turned on Hamas is a real sign of 
progress and hope for the future. And I think that we need to 
be very careful in making that judgment.
    I think that the main motivation there is that they see 
Hamas very clearly for what Hamas is, the face of jihadism, 
which represents a threat not just to Israel, not just to the 
Palestinians, but, more specifically, to them. And I think that 
is where a lot of that antipathy comes from. Whether we can 
manipulate that or gain from it is another thing, but let us 
understand it for what it is.
    What should American goals really be in the West Bank and 
Gaza specifically, between the Israelis and the Palestinians? 
At the end of the day, what our ambition is is what our 
ambition always has been: It is to build peace on a stable 
edifice. That edifice may or may not include a Palestinian 
state; personally, I think that it would be inevitable. But the 
fact that we have always been willing to suggest that somehow 
the fact that we want a Palestinian as progress toward peace is 
really an illusion. It is not progress toward peace. It is the 
stability of the edifice itself that is in question.
    We cannot, I think, as we consider new ways of going 
forward, embrace relationships, a relationship with Hamas. That 
is a real danger. There are some who have suggested that the 
United States should open up talks with Hamas, much as we are 
thinking about opening up talks with the Iranian regime. That 
is not a good way forward. It is a dangerous way forward. It 
risks undermining not just the Israelis, of course, but the 
Palestinian Authority and all moderate Palestinians that have 
sought to diminish Hamas' role as it has come forward in Gaza.
    Also in that regard, we need to be very, very careful of 
temptations to tinker in Palestinian politics. We have seen in 
recent reports talks about how we can reach out to particular 
members of Hamas, and not talk to other members of Hamas; 
thereby strengthening the moderates, and putting down the bad 
guys.
    We have historically been extraordinarily bad at tinkering 
in politics. We are not that good at tinkering in our own 
politics; we are really quite bad at tinkering in Arab 
politics. And that is a dangerous path forward for us.
    On the other side, Mr. Burton, you suggested that somehow 
these rocket attacks from Gaza and the war should be a reason 
to rethink the wisdom of the Israeli withdrawal from Gaza. And 
I would only say that this is the Israelis' business.
    You talked about Ariel Sharon and his decision, and I think 
that is true. There were too many in the United States who 
wanted to use U.S. influence to either push the Israelis to 
withdraw, or to foresee Israelis not to withdraw. This is an 
assessment that they must make, and in fact, they are now 
living with the consequences of that decision. It was not our 
decision to make.
    Today, talking about Gaza, we have not talked enough about 
one of the huge sources of the problem, which is Iran. Hamas 
would not have rockets to lob anywhere if Iran did not 
continually resupply them. Yes, it is true they use the tunnels 
and sea routes and other routes, as well. But at the end of the 
day, the source of the problem is one that needs to be 
addressed by sitting down with the Iranians, as the Obama 
administration has indicated it wishes to in the coming months.
    I see very little likelihood that this is going to be on 
the top of the agenda. On the contrary, what are we going to 
talk about? They have said very clearly we are going to talk 
about the nuclear weapons program.
    So that is a troubling fact<greek-l>, deg. and something 
that I think Congress can play a strong role in pushing back to 
the top of the agenda.
    Just a quick note on the question of aid to the 
Palestinians, because you asked me to talk a little bit about 
this. And I think that we have to recognize that the heart of 
the problem with aid to the Palestinians, but particularly to 
Gaza, lies in UNRWA, the United Nations Relief Works Agency, 
which has basically become a wholly-owned subsidiary of Hamas, 
in my estimation.
    It is propagandist for Hamas. They have 24,000-plus 
employees. Compare that, by the way, to the U.N. High 
Commissioner for Refugees, which is responsible for refugees 
all around the world, which has less than a quarter of that 
number of employees.
    They are based in Gaza. They do not vet the NGOs with whom 
they work. They do not vet their employees. They have allowed 
Hamas in the past to manipulate aid. It does not go to the 
purposes that we desire. And I think that it is important that 
we revisit their role and United States assistance through 
them.
    One additional note on the role of international 
organizations that might be of interest to the Congress and 
this committee, which has spoken to this issue many times in 
the past.
    Mr. Ackerman. I have to ask you to wrap up.
    Ms. Pletka. I will wrap up. At the end of January, the 
Palestinian Authority granted jurisdiction to the International 
Criminal Court for the West Bank and Gaza, and the ICC has now 
opened up an investigation into Israeli war crimes in Gaza. I 
do not see that as a very productive way for the international 
community to go forward.
    Last, in wrapping up, I think that we need to recognize 
that while Hamas has been a major problem, no one can under-
estimate the problem that it represents. It should not force us 
to look at Fatah through rose-colored glasses. This has been 
our habit in the past. Oh, well, if Hamas is lousy, then--I am 
sorry. If Hamas is lousy, Fatah is better.
    It is a cop-out on the part of the United States that we 
have failed to focus on governance for the Palestinians, that 
we have failed to focus on accountability, that we have failed 
to use our aid to try and deliver to the Palestinian people the 
kind of things that we would wish to deliver to ourselves: A 
responsible, accountable government that actually promises 
something that is more important to the day-to-day lives of the 
Palestinians than a Palestinian state. And that is just a 
little bit of hope for their future, and the future of their 
children.
    Thank you, Mr. Chairman.
    [The prepared statement of Ms. Pletka 
follows:]<greek-l>Pletka deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Ackerman. Thank you. And thank all of our witnesses.
    The chair will reannounce that we are going to operate 
under the 5-minute rule, and the chair will be less flexible 
with the members of the committee than we were with the, with 
the panel, in order to keep things moving. And try to keep me 
to the 5-minute rule, too, whoever is running these clocks.
    A peaceful solution, a two-state solution if you will, 
seems difficult, if not impossible, with Hamas as an active 
player and Fatah controlling the West Bank. And it seems that a 
lot of energies have been spent with all the theories of how 
you get them basically unelected. Whether you hobble them, as 
the Israelis have attempted to do, or whether you show them 
that there is a better alternative in the West Bank, it would 
seem that a lot of hope is being placed on an election that 
might take place in which they become delegitimized as far as a 
part of the government, or the government.
    I think that is putting too many of our eggs in one basket. 
If Hamas is unelected, do they really go away? If they are a 
terrorist organization, do terrorist organizations not exist or 
function if they don't hold elective office? Because very few 
do, and we seem to be going in that direction in different 
places in the world. Or is there a different way to deal with 
this? Or how do we deal with this specifically in this case?
    And is the problem really, as was pointed out by our last 
witness, Iranian-generated? And does that have to be solved 
before the Israeli-Palestinian-Hamas problem is resolved?
    Historically, everybody says well, all the problems in the 
Middle East or the world or the universe, you know, would be 
solved if the Israeli-Palestinian problem went away. Do we have 
it backwards? Who would like to start? Dr. Asali. Press your 
button.
    Dr. Asali. Thank you, Mr. Chairman. There are many, many 
comments that can be said about this. Fundamentally, I think, 
the two-state solution is more or less like democracy; it is 
the worst system except for all the others. If anybody gives us 
an alternative, we would be very happy to listen to a workable 
solution. Just to say that it is not working is not enough. You 
have to have an end to the conflict; no conflict goes unended.
    So the two-state solution has not been given enough 
support, even at the present circumstances, to improve the 
situation well enough in the West Bank, under the Palestinian 
Authority, with knowing full well that Hamas has not supported 
the two-state solution and is not inclined to go along with it.
    The problem is------
    Mr. Ackerman. Are you saying deal Hamas out of the two-
state solution?
    Dr. Asali. Yes. Hamas has been dealt out. And Hamas 
continues to be dealt out, and is not expected not to be dealt 
out. What is a problem------
    Mr. Ackerman. That is what you are advocating, as well?
    Dr. Asali. I am advocating that, until they accept the 
Quartet conditions. I think it makes sense, and I think the 
Quartet conditions are simply an affirmation of the commitments 
that the PLO, as the governing entity for the Palestinians, has 
made, and that should be continued.
    What was lacking, unfortunately, was real progress, 
palpable progress by the Palestinian people on the ground, and 
this has many, many causes. But it could not have happened, 
other occupation, without the cooperation of the occupying 
powers. And it could not have happened without an improvement 
in the governing system in the PA.
    Mr. Ackerman. Thank you. Mr. Makovsky, 30 seconds.
    Mr. Makovsky. I agree with Ziad completely with the issue 
of Hamas. They need to accept the conditions.
    I think if your premise is that the only thing that Hamas 
cares about is power, then I am sure accommodations can be 
found. I just believe there are a lot of Islamist movements in 
the Middle East, and they have a very heartfelt religious 
ideology. And I don't think we do ourselves or them any favors 
if we short-change--I don't think we do ourselves or them any 
favors if we short-change their world view.
    And they have been willing, I think we should listen to 
what they are saying.
    Mr. Ackerman. Thank you. Ms. Pletka, 30 seconds.
    Ms. Pletka. I agree with David. I think it is very 
important for us to listen to exactly what they say. This is 
not just a political fight, this is an ideological fight. But 
we also have a practical battle ahead of us.
    You ask a very hard question. One, should we put Iran 
first? And the answer to that is no, of course not. We can't 
just walk on one path. We have to chew gum and walk.
    We need to work toward an Israeli-Palestinian solution. But 
we must prioritize the support for terrorism along with Iran's 
nuclear weapons program, or we will end up------
    Mr. Ackerman. Thank you.
    Ms. Pletka [continuing]. Facing this in the rest of the 
region.
    Mr. Ackerman. Dr. Dunne, 30 seconds, because my time is 
running.
    Ms. Dunne. Regarding Hamas, I think that our problem as the 
United States is we want Hamas to walk the road that the PLO 
walked 20 years ago. And Hamas sees very well that the PLO 
walked that road, and it failed. And so that is the difficulty 
that we face now, is to give the Palestinians some hope in 
order to------
    Mr. Ackerman. You are saying it failed because they have no 
state?
    Ms. Dunne. They failed for two reasons. Because they have 
no state, and because also what Ms. Pletka pointed out, 
disastrously bad governance and corruption. So they failed on 
both of those scores, and that is why we see the popularity of 
Hamas now.
    Mr. Ackerman. Thank you. Thank you, my time has run.
    Mr. Burton.
    Mr. Burton. Thank you, Mr. Chairman. First of all, let me 
just say that my view on whether or not Mr. Sharon should have 
gone into, or should have given Gaza back to the Palestinians, 
that was only my opinion. I certainly would not want to ever 
try to interfere or dictate to a foreign government on the 
policies that they have. But I did think it was probably an 
error, and it did bother me a great deal.
    You indicated that there was a disproportionate amount of 
pressure put on by the Israeli military when they went in, and 
I thought they showed a great deal of restraint. Because the 
Hamas militants were using women and children, and hospitals 
and mosques as shields against Israeli attacks, and the 
Israelis did stop so that they could minimize the civilian 
casualties.
    There were those who said that they should have pressed on 
further, to completely destroy Hamas. But I think they showed a 
great deal of restraint, even though there were some 
differences of opinion there.
    Mr. Makovsky, the Washington Times reports this morning 
that Bebe Netanyahu is a likely winner. What is your opinion of 
that? And can you give me an answer on why that is the position 
they have taken?
    And Saul, are you a friend of Saul Singer's?
    Mr. Makovsky. I know Saul very well.
    Mr. Burton. He used to be my first foreign policy guy, so 
would you tell him I said hi?
    Mr. Makovsky. Will do.
    Mr. Burton. Thanks.
    Mr. Makovsky. I would just say on the, if I could say on 
the humanitarian part of your question, I think by firing from 
civilian areas, Hamas has shown its disregard for human life. 
And that put Israel in a very difficult position.
    I think one of the lessons Israel, though, has to take from 
this is to set up an urban core, where you have designated safe 
zones that would be manned by soldiers, so it could not be 
exploited by terrorists.
    But that is the nature of warfare in the Middle East now, 
with these non-state actors, is using urban areas. And that 
requires I think some reorganization in Israel.
    Mr. Burton. Okay.
    Mr. Makovsky. According to Mr. Netanyahu's policy, my 
belief is that from what he said, and from the people around 
him who I have talked to in the last 24 hours, he is going to 
try to have a broad-based government with Ms. Livni of the 
Kadima Party, who won the most------
    Mr. Burton. Do you anticipate that he will prevail?
    Mr. Makovsky. If I was a Las Vegas odds maker, Congressman, 
I would have to say that he will, he will be the next Prime 
Minister.
    Mr. Burton. Okay. Ms. Pletka, there are several high-
profile delegations going to Syria, Congressional delegations 
going to Syria in the next couple of weeks. What do you think 
about that? Do you think this is a wise thing to do?
    Ms. Pletka. An open-ended question. I never think that it 
is wrong <greek-l>for, I never think it is wrong  deg.for 
Members of Congress to go on delegations to find out what 
foreign leaders are thinking.
    The only caution that I would give is not to, not to be 
fooled by talk. We are really interested in what the Syrians 
are willing to do. Are they continuing to funnel arms to 
Hezbollah? Yes, they are. Are they continuing to interfere in 
Lebanese politics? Yes, they are. Are they continuing to allow 
killers into Iraq? Yes, they are. Have they got a burgeoning 
relationship with al Qaeda? Yes, they do.
    Mr. Burton. Well, of course. What about Secretary of State 
Hillary Clinton has indicated that there is an opportunity for 
the Iranian Government to demonstrate a willingness to unclench 
their fists, and to begin serious and responsible discussion 
about a range of matters. And she goes on to indicate that 
there ought to be discussions.
    What do you think about discussions with Iran from the 
State Department? And do you think that Congressional 
delegations ought to be involved in any way in discussing the 
situation in the Middle East with any Iranian officials?
    Ms. Pletka. I think that Members of Congress should be as 
constrained as the State Department is in their discussions 
with Iranians. The United States Government and Foreign Service 
Officers and political appointees have been talking with the 
Iranians for years. Ambassador Khalilzad, Ambassador to 
Afghanistan and then to the U.N., had regular meetings with 
Iranian counterparts. Ambassador Crocker in Baghdad has been 
meeting with them.
    I think we should not underestimate the imprimatur that the 
United States gives in having meetings with countries, and the 
seal of approval that it conveys. If it is, in fact, a change 
in position on our part, it should be accompanied by an 
expected change in position on the part of the Iranians. We 
know what we are looking for; let us see their bona fide.
    Mr. Burton. My time is running out. Would any of the others 
of you like to make a comment on that? Mr. Asali.
    Dr. Asali. If I might just say something in response to the 
remarks about the Israeli, what I call disproportionate--two 
things.
    First off, a kill ratio of 100 to one or an injury ratio of 
50 to one is a statistical evidence of something 
disproportionate. But there is a humanitarian aspect that is 
way too disproportionate.
    And also, the first reaction to the attack on Gaza was 
blamed by several Arab countries, including the head of the 
Palestinian Authority, President Abbas. It is afterwards that 
this relentless attack resulted in so much destruction, with TV 
pictures all over the place showing it, that they lost support.
    Mr. Burton. Thank you. Thank you, Mr. Chairman.
    Mr. Ackerman. Thank you. Mr. McMahon.
    Mr. McMahon. Thank you, Mr. Chairman, and thank you for 
this fascinating hearing.
    If you could speak to the most immediate needs of the 
population of Gaza. And is there a humanitarian crisis, or is 
the situation stable or just awful? Does the United States have 
a bigger role to play in helping the humanitarian side of what 
is going on on the ground there? And do we have to then look at 
reconstruction and stabilizing the situation, as well?
    But what is going on in the daily lives of the people 
there, and how are the conditions?
    Dr. Asali. First off, if I may, we need to take lessons 
from what happened in Lebanon in 2006, where a promise of aid 
was never delivered after the invasion. And Hezbollah took 
charge of that process, and it changed that help that was 
extended to incredible political benefit.
    I think this should not be lost, neither on this Congress 
nor anywhere else.
    Secondly, the present humanitarian condition in Gaza is 
just beyond terrible. You know, there are problems with water, 
electricity, roads, housing. There are over 50,000 people 
without shelter. There is no food; there is not enough food. 
There is not enough of anything. And the convoys that are 
supposed to carry aid are still restricted by access in every 
direction in Gaza. And there is no manufacturing.
    The life, the quality of life for the people at every 
level--the health, the education--probably is worse than 
anywhere in the world now.
    This needs to be addressed, in and of itself, as a separate 
issue from all the other reconstruction and other developments 
that need to work be worked on apolitically. This cannot be 
politicized.
    UNRWA, I heard some criticism about UNRWA in this panel's 
representation. UNRWA is what we have now as a main provider of 
help to Gaza. Over 800,000 people depend on the food that, and 
other help that is provided by UNRWA.
    There are other sources, of course. But this cannot be now 
a subject of serious political conversation. Let us get the 
humanitarian situation out of hand and controlled. And here 
again, we propose that we have the Special U.S. Envoy deal with 
this issue promptly with the Quartet.
    And we recommend the establishment of an international 
community that adds to the Quartet Egypt, which is the 
indispensable partner, and the one that can help in a 
meaningful way, and whose role has been quite positive. Plus 
the Palestinian Authority, which has to take the political 
credit for this thing in order to carry this forward.
    Mr. McMahon. Mr. Makovsky.
    Mr. Makovsky. Yes. I just want to pick over that very last 
point.
    I think the key thing is that the Palestinian Authority 
needs to get the credit. You are all politicians; you 
understand the importance of the nature of credit and public 
support. And I think that this is crucial.
    There is going to be a donors conference in Cairo coming 
up, which I think will be key. I just want to say on the issue 
of UNRWA, I would be happy to--and I hope you don't see this as 
institutional self-promotion--James Lindsay, who was the legal 
counsel of UNRWA, wrote a study for us at the Washington 
Institute, a very serious, heavily, heavily footnoted study on 
UNRWA.
    We are not calling for the abolition of UNRWA at all. We 
just think that it should focus much more on its humanitarian 
mission. And with your permission, I would like to circulate it 
to the members of the subcommittee.
    Thank you.
    Mr. McMahon. Mr. Makovsky, can you speak to the human 
conditions in Gaza today?
    Mr. Makovsky. Oh, I think that they are, you know, they are 
terrible conditions, you know. And Hamas, they brought all this 
on them because they cared more about their ideology than 
helping their own people. But I don't think that means that we 
should stand by.
    What I would hope is that the Palestinian Authority could 
be at the access point going into Gaza. After they had been 
thrown out in 2007, there should be an international effort on 
humanitarian assistance and reconstruction. And I think we 
should all care about that.
    Mr. McMahon. Ms. Pletka, do you wish------
    Ms. Pletka. I wanted to say something quickly. I couldn't 
agree more with David.
    The humanitarian situation, just to your specific question, 
there should be no disagreement about the humanitarian 
situation on the ground, nor about the urgency of getting 
assistance to the Palestinians.
    On the other hand, I do think there is an important role 
for the Congress. And this committee and your Senate 
counterpart can play a very strong role in ensuring that 
American assistance is not manipulated or abused; that it does 
not go to terrorist organizations, directly or indirectly.
    There are rules right now that are under consideration for 
AID that would significantly weaken the vetting process that 
goes on to NGOs and their subcontractors. Money has gone to 
terrorist groups in the past, and you can stand in the way of 
that and ensure that assistance is used effectively, not just 
for our interests, but also for the Palestinians.
    Mr. McMahon. Thank you. Thank you, Mr. Chairman.
    Mr. Ackerman. Mr. Inglis.
    Mr. Inglis. Thank you, Mr. Chairman. I suppose this 
question really involves something of a crystal ball for you to 
maybe assess what you think the approach would be of the new 
coalition that will be formed in Israel, and what their 
approach to the peace process would be. Or how would they 
approach Gaza.
    Anybody want to take a stab at that? Shine up your crystal 
ball?
    Mr. Makovsky. Well, I think the most likely outcome, 
whether Mr. Netanyahu or Ms. Livni is the next Prime Minister, 
is a broader-based government led by Likud and Kadima, those 
two parties. And you could say well, you need unity if you are 
going to move forward.
    The issue is, how much can be done? It seems to me that at 
the outset earlier and what the chairman said in his remarks 
about building a better alternative in the West Bank is part of 
the answer. It is not the whole answer. Improving economic 
institutions that Tony Blair and Dayton have been working on, 
working on the security institutions that Three-Star General 
Keith Dayton has been working on in training and equipping 
Palestinian security forces, so Israel could pull back to the 
September 28 lines, in the year 2000 at the start of the 
Intafada.
    You know, there will be I am sure some discussion with the 
United States and Israel over a letter that was signed in 2004 
between Secretary of State Rice and Mr. Weisglass, who was an 
aid of Mr. Sharon, about the binding settlement, you know, to 
make sure there is no expansive settlement. It has been a 
contentious issue.
    I have a view--I don't claim it to be the view of my 
institute or of anyone else--but I believe the actual 
differences between the parties over land, despite what someone 
like, respectfully, I say, former President Carter might think, 
the differences are actually very narrow. And I think there is 
actually more of a consensus in Israel on this.
    The Israelis are just afraid of being blown up, given the 
Qassam rockets coming out of Gaza. Because they didn't like the 
book in Gaza, they don't want to see the movie in the West 
Bank.
    So the question is, can you construct the situation where 
that you could demarcate the line, and basically end, once and 
for all, the problem of settlements, that has been a friction 
point since 1967. And say here, here, we now know where the 
border is. This will be Palestine, this will be Israel. And it 
may move those settlers, but maybe the IDF, the Israeli army, 
will have to stand there until the Dayton mission over years 
will be able to demonstrate that it could pick up the slack, 
and a vacuum will not be filled by terrorists.
    I think something to end this ambiguity that has been with 
us for so long--sometimes ambiguity can be constructive, 
sometimes it is destructive. And I think a focus on the 
territorial dimension of this conflict--which everyone thinks 
is at the core, and I don't--I think it has been the problem of 
not rejecting that Israel's right to exist, for the most part.
    But I think the territorial dimension, if you separated it 
from the security dimension, in my view actually holds forth 
some promise. And it is possible--I am not here making a grand 
prediction with a crystal ball--but I think that might be an 
area that the United States and Israel could actually engage 
upon, because the differences have narrowed between Israelis 
and Palestinians on the territory.
    The key is security, security, security.
    Dr. Asali. If I may, I think there are two election 
contests that have just happened. One of them was one in this 
country, where there is a clear commitment of the new President 
and new administration to energetically get involved with the 
Middle East and pursue a two-state solution.
    What happened in Israel is still uncertain, of course, in 
many ways. But the leader of Israel would have to accommodate 
his policies to the policies of the United States in order to 
continue the grand strategic relation. And it is hard for me to 
imagine that the leader of Israel would oppose the policy of 
the United States and stay in charge for very long.
    Having said that, I think there are many things that can be 
done regardless of what happens. One is improving the political 
conversation that is taking place with the Palestinian 
Authority, and improving the security and economic situation of 
the West Bank. And part of this is to actually empower the 
Palestinian Authority by moving forward and forcefully on the 
Gaza reconstruction.
    There is a proposal by the Prime Minister of Palestine, 
Prime Minister Fayyad, to move $600 million to $800 million 
through the banking system, a private enterprise solution to 
the present crisis in Gaza. That bypasses the difficult and 
thorny issues.
    There is no question that the Israelis can be cooperative 
with that by allowing the money to go in. This has been another 
problem with Israel, not allowing actual money to go into Gaza.
    So there are many things that can be done on the margins, 
as long as the policy approach remains solid toward a two-state 
solution.
    Mr. Inglis. Thank you. Thank you, Mr. Chairman.
    Mr. Ackerman. Next, Ms. Berkley. Just so the members know 
where they stand for the questioning under the 5 minutes, we 
have switched to seniority order on the subcommittee, which is 
not necessarily the order people are sitting in right now, to 
add to the confusion.
    Ms. Berkley, you are next.
    Ms. Berkley. I thank you, Mr. Chairman. I have a lot of 
questions that I would like to ask, but perhaps by way of 
speaking, and then I will ask the questions.
    When it comes to rushing aid into Gaza and thinking that we 
are going to give credit to the Palestinian Authority, and that 
the Palestinians in the Gaza are going to rise up and be, throw 
Hamas away because they finally recognize who is helping them, 
I think is nonsense.
    If Hamas have a whit about the Palestinian people, there 
would be peace, and there would have been a two-state solution 
long ago.
    The reality is that there are many, many trucks getting 
through that provide aid, and have equipment and food and 
medicine for the Palestinian people living in the Gaza. And we 
already know that Hamas has been commandeering these trucks, 
and stealing the content, instead of the content going where it 
needs to be.
    But this is nothing new, and nothing surprising. So more 
trucks going in and more aid rushing in doesn't change the 
situation on the ground.
    Now, I agree with Ms. Pletka. Secretary Rice was sitting 
right where you were when she was, when Hamas won the election, 
and she stated that American policy was not to give any aid to 
Hamas, so the Palestinian people would realize that Hamas was 
not where their destiny lie.
    But she said we were giving money to the NGOs. And I 
remember Mr. Ackerman asking this question, well, how do we 
track, how do we know that the money we are giving the NGOs is 
actually going to the Palestinian people. Her response took my 
breath away, because she said well, she says, we don't actually 
know, because we don't have any people on the ground ourselves. 
But we know people who know people that tell us that the money 
we are giving the NGOs is actually going to the Palestinian 
people.
    I thought, for a Secretary of State of the only superpower 
in the world to say that was absolutely astonishing to me.
    And I also agree with you that there is a reason that Hamas 
won this election. And it is because Fatah is corrupt and 
riddled, riddled with fraud and abuse of the Palestinian 
people.
    And I would submit to you that the Palestinian people's 
problem has nothing to do with money. Because the Quartet, 
particularly Europe and the United States, has given billions, 
billions of dollars over the last several decades to the 
Palestinian people through their leaders.
    And I also would submit if the Palestinian Authority wants 
additional money, and they definitely need it because the 
Palestinian people are suffering, they might track down 
Arafat's widow. Because I believe she is living very, very well 
on the hundreds of millions of dollars that we have donated to 
the Palestinian people. While she is living high on the hog, 
they are starving. And that is outrageous to me.
    Now, I cannot understand why the Palestinian people are 
held to such a low standard. If the Palestinians are ever going 
to have a state of their own that is governable, that they can 
take their children into a new direction and a new future for 
the Palestinian people, they have to get control of their own 
destiny. And it can't be constantly with their hat in hand, 
asking for the rest of the world to keep bailing them out.
    I submit to you that the Palestinian people have to stand 
up for themselves, take control of their own destiny, and make 
a determination of who their leaders are that are going to move 
them into a new future. It is not Fatah. Abu Mazen is a very 
weak leader that does not even command the respect of his own 
people. That is not America's destiny, and we shouldn't be 
hooking up with him. And Hamas is a terrorist organization.
    Either way you go, the Palestinian people are the losers. 
And until the Palestinian people empower themselves, I don't 
see how we have a two-state solution, and I don't see how the 
United States partners with either Fatah, and obviously not 
Hamas, to help the Palestinian people.
    And I am not sure if that is a question, but that certainly 
is a statement precipitated by all of your comments.
    There is one other question that I wanted, to Ms. Dunne. I 
understand some of the measures that you suggested, and I think 
they have been tried time and time again. But one in 
particular------
    Mr. Ackerman. Your 5 minutes are run.
    Ms. Berkley. Thank you very much.
    Mr. Ackerman. Mr. Wexler.
    Mr. Wexler. Thank you, Mr. Chairman. We all agree that the 
United States policy vis-a-vis Hamas should be that we don't 
acknowledge, or deal with in any way, until Hamas meets the 
Quartet's principles. We agree with it; President Obama agrees 
with it; Secretary Clinton agrees with it.
    It seems to me, then, the question becomes: How does the 
United States participate in a dynamic that either defeats 
Hamas or marginalizes it? And that, to me, is the question.
    Now, what I have heard from Arab leaders who have dealt 
with Hamas over the last several years, and principally in the 
last several months--what I hear from them--is that, very 
consistent to what has been said here: Listen to what Hamas 
says; they are genuine in their expression of their goals. And 
the idea that there is a mechanism in which to co-opt Hamas 
from a terrorist organization into some type of constructive 
political entity is not realistic.
    So if they are correct, and our policy remains the same, I 
go back to the original question. How, then, do we defeat or 
marginalize Hamas.
    Before I get there, though, just a few points, if I could. 
Respectfully, Ms. Pletka, you are obviously an incredibly 
bright, informed, thoughtful person. And I agree with about 80% 
of your written testimony. But there are parts of it that I 
think undermine, in essence, the position that you take, or at 
least I think the position you take.
    You say American policy goals should be straightforward: An 
end to the Israeli-Palestinian conflict built on a stable 
edifice that may, but should not necessarily, include a state 
of Palestine.
    Well, if the United States is ambivalent in its support of 
a two-state solution, we condemn the moderates to fail in that 
arena, it would seem to me.
    Also, statesmen such as Abu Mazen and Salam Fayyad 
represent a new Palestine, supposedly; but rather, they are the 
old Palestine that looks better only when compared to Hamas.
    Prime Minister Fayyad: I mean, no one is perfect, but the 
man has set up a transparent system of accountability that both 
the United States, Israel, and others believe in deeply. He is 
obviously handicapped in many different respects, but again, to 
dismiss the efforts, the ideology, and the perspective of Prime 
Minister Fayyad is quite unhelpful and undermines the goal of 
what it is we are seeking to achieve.
    Dr. Asali, I agree with 90% of what you say. I respect you 
enormously. I would respectfully disagree as to the conclusion 
with respect to disproportionate force in the context of 
Israel's actions. To me, it is a false misnomer.
    No nation should act with proportionate force when it is 
attacked in the manner in which Israel was attacked by Hamas 
repeatedly. And Israel was totally justified in doing what it 
did, as catastrophic as the consequences undoubtedly were.
    But I do think you make one extremely important point. And 
I think those of us, and I would like to think I am one of 
them, who are deeply committed to the security, both 
professionally, emotionally, and personally, to the state--the 
security of the state of Israel--must say, and must say it in 
an unequivocal fashion: It is incumbent upon Israel to freeze 
settlement activity. While in and of itself that is not the 
only part of this equation, the Palestinians have enormous 
responsibilities; but the notion that Israel can continue to 
expand settlements, whether it be through natural growth or 
otherwise, without diminishing the capacity of a two-state 
solution, is both unrealistic and, I would respectfully 
suggest, hypocritical.
    And it is incumbent, in my view, upon the new 
administration, along with many other factors, to assist upon 
that part of previous agreements.
    So to the original question: How do we defeat Hamas? 
Please.
    Mr. Makovsky. Congressman Wexler, you raise a very 
important point. And I would argue that we need a new paradigm 
in our relations with our Arab allies, with our friends in the 
Arab world; that we cannot let them off the hook. This is the 
core.
    Whatever we as Americans, or what they, the Israelis, say 
about Hamas is one thing. In my view, the only people who could 
delegitimize Hamas are Arabs, are Muslims. And we need to make 
that point.
    I would like to just quote one thing Hosni Mubarak said, a 
rare statement--it was right after George Mitchell visited 
Cairo, so maybe there is a relationship there. He was speaking 
to the Police Academy, I believe, in Egypt.
    He says:

          ``The resistance must take into account victories and 
        losses. It is responsible for the people, who in turn 
        should settle the score with resistance over the gains 
        it has achieved, but also the sacrifices, the pain, and 
        the destruction it has caused.''

    Ideally, the Arab States should say it is immoral to say, 
to engage in terrorism. At minimum, they should say it is 
counter-productive.
    In my view, until the leadership in these countries 
delegitimize what Hamas is doing, we are going to have a very 
marginal return on everything else. They are the missing piece 
of this puzzle, and I would hope that Congress, with all its 
relationships with our Arab friends in Arab capitals around the 
world, that the leadership makes this point clear in Arabic, on 
Arabic satellite television, together.
    I feel that there is really no other alternative. This has 
been an area which has not been pushed in the past.
    Thank you.
    Mr. Ackerman. Thank you. Mr. Connolly.
    Mr. Connolly. Thank you, Mr. Chairman. Let me ask the panel 
this question first.
    In the aftermath of the Israeli military operation in the 
Gaza, is Hamas politically stronger today, or weaker?
    Dr. Asali. Politically stronger in the West Bank, and 
weaker in Gaza, if we are to believe the statistics and what we 
hear. And it is significant in that sense.
    There has been a war, a propaganda war, global propaganda 
war about this issue, and a fight about ideas and about images, 
et cetera, et cetera, that has been very effective. And it did 
portray the destruction in Gaza as beyond, you know, endurance 
in every way. And people were seeing that not just in the West 
Bank, everywhere. And that has definitely accrued to the 
benefit of Hamas, not just on the West Bank, also in the Arab 
world.
    On the other hand, you can say that what we hear from 
Gaza--and this is supported by the recent surveys, there are 
two surveys in fact--the people of Gaza live there. They have 
lived what happened, and they have an understanding of how it 
started, how it was triggered at least, and they still are 
suffering the consequences. So Hamas cannot very readily 
convince them by vote.
    And I will go back to how we can defeat Hamas. Eventually 
this has to be a democratic process. We have to believe in what 
we preach. And it is doable. Eventually the Palestinians will 
have to vote. The Palestinians must vote at some point in time 
to give legitimacy to any kind of a government that comes.
    And this is how you, if you want to defeat Hamas, you have 
to convince them not that Hamas is offering a dead end, but 
that there is another end that actually works. That is why I 
cannot say enough about what Congressman Wexler said. You have 
to empower the people who are trying to offer the alternative, 
as you demand of them the accountability and transparency that 
you need. You cannot just say all the Palestinians.
    If you say Hamas is terrible and Fatah is terrible, you are 
condemning the Palestinians and the Israelis, so there is my 
future.
    Mr. Connolly. Anyone else on the panel? Yes, Dr. Dunne.
    Ms. Dunne. I would like to note that regarding the status 
of Hamas in the Arab world, unfortunately it is in the opposite 
direction from what Mr. Makovsky suggested it should be. In 
other words, the status of Hamas has risen in the Arab world, 
and the recognition of Hamas as somehow the legitimate 
governing body at least in Gaza, and perhaps the legitimate 
representative of the Palestinians.
    This is a very unfortunate development. But we saw, for 
example, Qatar invited the representative of Hamas to an Arab 
summit, instead of the PLO. And this is the result of the 
hopelessness about the two-state solution, the sense that it 
isn't going anywhere, and it isn't going to go anywhere.
    And also, the weakness of the secular nationalist 
Palestinian leadership, the PLO and Fatah, which frankly has 
not been able to pull itself together in the last few years and 
represent, you know, a strong alternative to Hamas.
    Mr. Connolly. Mr. Makovsky.
    Mr. Makovsky. I will just say very briefly, I mentioned in 
my remarks that only 35% of Gazans believe Hamas actually won 
the war.
    So I know people like to say that Hamas is 10 feet tall. I 
don't believe it, given those results.
    And Michele is right about that in the Arab satellite 
television--which is a key form of communication--they did well 
with the publics. But I think it should be pointed out that 
President Mubarak, when he understood that national security 
interests were at stake, he held the line and didn't call for 
Hamas to take over the crossing points.
    And that, to me, is the key. The key is leadership at the 
top. The public is going to say what it is going to say. And we 
should care about that, of course; but we should care no less 
that the leadership, in my view, understand and act in concert 
when vital issues are at stake.
    Because Hamas there, and as, you know, as Danni pointed 
out, with Iranian support, this is not in the interest of any 
Arab country. They understand very well who Hamas is aligned 
to, and I think we need to encourage them to be more clear in 
public. They whisper wonderful things in private, to all of us. 
But what is important is what is said in Arabic in public to 
their own people. They could shape public opinion.
    Mr. Connolly. Mr. Makovsky, I only have 30 seconds left. 
Could you expand a little bit? You predicted that if you were 
in Nevada, you would bet on Netanyahu putting together some 
kind of coalition government.
    What is that going to look like? And what does that mean 
for the peace process moving forward, do you think?
    Mr. Makovsky. I think a broader-based government, with 
Livni, the Kadima Party, and making her Foreign Minister, maybe 
giving one of her colleagues to be the defense minister; you 
know, they will cobble together a government. I think there 
will be elements more on the more left side of Israel that will 
sit it out. But I think that clearly on economic issues--and 
this shows that there has been progress. I realize that 
everyone can be very disdainful that no progress has been made.
    Everyone now thinks it is important to build economic 
institutions in the West Bank. Well, let us see that 
practically. What does that mean? We, in the United States, 
should put forward ideas.
    But economics is not enough. There has to be a movement on 
the political process, too. The economics won't sustain it.
    But I think under the able leadership of Mr. Fayyad, the 
Prime Minister who has done fantastic work there, and with 
Blair and Dayton and all the other who are on the ground, we 
have some foundation to build on. And any new Israeli 
Government is going to be receptive to it.
    But again, it is not sufficient. I accept the point on the 
settlements, and the broader process. But there is something to 
build on.
    Mr. Ackerman. Thank you. The chair believes Mr. Ellison 
will be back in. In the meantime, we will entertain a second 
round of questions for 2 minutes from each of the members, if 
that is okay with the panel.
    I will turn first to my ranking member.
    Mr. Burton. Thank you, Mr. Chairman. I just have one 
question.
    And Syria is the ``headquarters'' for Hamas. Is there any 
hope or any indication that discussions between Members of 
Congress or the administration with the leadership in Syria, 
that we could bring about a change in their attitude toward 
Israel and toward stability in the Middle East? And would that 
be a worthwhile endeavor, as far as stopping them from being 
conduit for weapons getting into Hezbollah and Hamas coming in 
from Iran?
    In other words, is there any chance that we could have some 
reasonable status area if we had discussions with them on a 
multi-level basis?
    Mr. Makovsky. Sure, if I may very briefly--and Danni Pletka 
and I might disagree on this one--but I think it is at least 
worth a conversation of a new administration with the 
authorities in Syria about peace.
    They have to understand what this involves. It is a 
realignment of their regional foreign policy. Are they going to 
sever their military alliance with Iran? Are they going to stop 
missile flow to Hezbollah? That would be a huge windfall, if 
they are willing to do basically what Egypt did in the 1970s, 
and expel the Hamas and Islamic Jihad offices.
    I don't think we know the answer to that. And I am not here 
to say that I know the answer, but my view is it doesn't hurt 
to have a conversation with the Syrian authorities about that.
    Ms. Pletka. David is right, we do disagree. I think that 
the problem is not in talking. All of us have enjoyed the 
election and talking about talking to our enemies, and we are 
done with that now. But let us not fool ourselves.
    The prospect that Bashar al-Assad is going to sever his 
relationship with Iran and his support for Palestinian so-
called rejectionist groups, like Hamas and Palestinian Islamic 
Jihad, cut off the weaponry and everything else to Hezbollah, 
and disentangle his own government from interference in 
Lebanon--and let us not forget, that is a priority for the 
United States--means essentially that he would recast the 
entire nature of the Baathist Alawite regime in Damascus. And 
certainly I believe it is his estimation that it would be his 
downfall.
    So what we are really saying is come and lie to us a little 
bit so we can move forward with you, and we can put in place 
the elements of this great, great game, which all the dominoes 
fall into place. And we talk to Iran, we isolate them. We 
isolate the Palestinians, we cut off Syria. I am sorry, forgive 
me, I have been doing this a little bit too long. It is not 
credible.
    We can go in with an open mind, but for goodness sakes, let 
us not engage in fantasy.
    Mr. Ackerman. Mr. Makovsky, in discussing reconstruction 
you noted the enormous potential of the wealthy Gulf States, 
and you urge the U.S. to seek their involvement in the process.
    What price do you think we would have to pay them in order 
to get their whole-hearted and open-handed support? And what do 
they need to make contributions worthwhile politically?
    Mr. Makovsky. I am not sure I know the answer. But I mean, 
they who are the biggest advocates, in theory at least, of 
Palestinian nationalism, should at least be supportive of their 
brethren. That has not often been the case.
    The things they could do are not just in Gaza. But if they 
could just do large-scale housing construction projects in the 
West Bank, I think they would help the Palestinian Authority 
enormously.
    And my view is we just shouldn't let them off the hook. 
They are very happy to hold our coats and see us pressure the 
parties. But I think we should just be more insistent than we 
have been in the past on their participation. That means 
economic participation; that means their political 
persuasion<greek-l>, deg. and their use of the public bully 
pulpit to make its views clear on which parties are bringing us 
closer to a two-state solution, and which ones are bringing us 
farther away.
    And I think because of maybe other priorities we have had, 
and maybe the price of oil and all sorts of issues, we have not 
been energetic in dealing with the Gulf States. And I would 
hope that would change with the Obama administration.
    Mr. Ackerman. The interesting statistics that have been 
cited as to who believes Hamas won the war, with that 
indication saying that was a more popular notion in the West 
Bank than in Gaza, I guess is because the people in Gaza have 
to live with the reality, and the people in the West Bank can 
live with the romance.
    In a year from now, what does that poll show?
    Dr. Asali. Well, we hope, and we hope this committee and 
this administration in general, would contribute to answering 
that question in the right direction.
    I think a commitment to improving the situation in the West 
Bank, and here I cannot but emphasize how positive the role of 
General Dayton and his security forces buildup has been 
important in order to bolster the safety and security of the 
Palestinian people, which would in turn make it possible to 
make economic improvements. And all this within the context of 
a political horizon would be the way to point for the future 
elections if it is held, let us say 1 year from now.
    The Palestinian people cannot but see some kind of an 
improvement on the ground if they are going to be voting the 
way you want them to vote. We hope that they would vote.
    Settlement freeze, unquestionably, because it undercuts the 
credibility of the two-state solution. And this is a political, 
as well as a practical, step that can be taken.
    Secondly, withdrawal from cities, and you know, David has 
already alluded to that one the 8th of September, and access 
and mobility, improvement of these things. This is not just 
talk; this is the way people live.
    I understand pork in this country. I think we all 
understand pork in this country. Well, pork is everywhere. If 
you do not give pork to the people of Palestine, then how can 
they possibly respond to the kind of politicians and add to 
that the accusation------
    Mr. Ackerman. This is the Muslim explaining to a Jew why 
pork is necessary? [Laughter.]
    It works, doesn't it? I think it is the grease.
    Mr. Makovsky. I would just add very briefly to Ziad's 
answer of two specific programs that I think, and if Congress 
would undertake to help out on the West Bank.
    The United States Customs Service in different countries 
has a container initiative program to seal containers for 
export. In my view, if this was done in the West Bank, and 
working with the Israeli authorities as well, that the Israelis 
didn't have to worry that there are bombs and there are et 
cetera, it could fast-track Palestinian exports. And exports 
have been a huge problem.
    The second element is biometrics at crossing points that 
could ensure that movement and access is upgraded.
    So my whole premise is, how do you improve Palestinian 
institutions and better life, and not at the expense of Israeli 
security? I don't believe it has to be a zero-sum game.
    And Mr. Chairman, in mentioning your remarks, I think it is 
interesting there were virtually no demonstrations in the West 
Bank during the Gaza initiative. So I think that is an 
interesting sidelight.
    Mr. Ackerman. Were there no demonstrations? Or were they 
tamped down?
    Dr. Asali. There were demonstrations, but they were ruly 
and orderly.
    Mr. Ackerman. Anybody else want to answer the underlying 
question?
    Ms. Dunne. Mr. Chairman, I would like to add a point. I 
think we need to be realistic about the need for a stronger and 
more unified nationalist leadership on the Palestinian side.
    All of these things that we are speaking of--improving 
economic conditions, freezing settlement movement and so 
forth--all of this can help, but none of it will be enough if 
Fatah is not able to pull itself together in some way. Because 
that was one of the reasons why they lost the 2006 elections, 
in addition to the greater credibility that Hamas had in some 
ways, also Fatah was extremely disorganized. And we have seen 
that continue.
    Despite good leadership of the Palestinian Authority on the 
ground by Prime Minister Fayyad and President Abbas, we still 
have seen a failure of political organization and unity. The 
Fatah has been trying to organize a general conference to 
renovate its leadership and so forth, and has failed to do so.
    So this is a continuing problem that we have to be aware of 
and be realistic about.
    Mr. Ackerman. Thank you. Mr. Ellison.
    Mr. Ellison. Thank you, Mr. Chairman.
    Mr. Makovsky, could you identify for us which 
organizations, which international aid organizations have the 
experience, the infrastructure, the wherewithal to deliver aid 
in Gaza?
    Mr. Makovsky. I don't feel that I am qualified. I mean, a 
lot of them, I think there was just $20 million that the United 
States gave through the International Red Cross and some of the 
other NGOs. I don't think people are questioning the ability of 
these organizations so identified by the United States.
    Mr. Ellison. I only ask you because the issue of UNRWA has 
come up. And I just want to know, do you believe they are one 
of the groups that are effective at delivering aid in Gaza?
    Mr. Makovsky. Well, as I said before, and I will say it 
again, I feel that UNRWA has an important humanitarian mission. 
And my hope would be it would focus on its humanitarian 
mission.
    I think there are some other parts that it has evolved 
into, that were not in its original mission when UNRWA was 
formed. And I think it has strayed into those areas. And I 
think the goal is not to abolish it, but to make it more 
effective. And I think that should be the hope.
    Mr. Ellison. Thank you. I am curious to know your views on 
the Israeli election. Obviously things are so well settled, it 
is pretty tough to know what is exactly going to happen.
    But in my reading and research, I have run across documents 
which seem to suggest that Mr. Netanyahu does not necessarily 
support the two-state solution. Could you give me a better 
reading of whether some of those documents that I read are 
accurate, whether they are not accurate? And if he doesn't 
support the two-state solution, what does that mean in terms of 
the U.S. policy?
    Mr. Makovsky. I think here it is going to be what sort of 
government is configured. If there is a broad-based government, 
I think there is hope. Ms. Livni is a very passionate advocate 
for a two-state solution.
    And to be fair to Mr. Netanyahu, who said, well, he 
wouldn't talk to Yasser Arafat, I remember when he was in the 
opposition in 1996. Well, when he won, he met with Arafat 
within 100 days of taking office. And he is the one also, when 
there was an issue of Hebron--Hebron is one of the most 
religiously charged cities--and he was the one who reached an 
agreement there.
    So I don't think we should disqualify people. But I do 
think the constellation of power is important, and there is no 
doubt, I would have more confidence, in terms of his own rule 
as part of a broader-based government. I think if he leads a 
narrow government, frankly I am very concerned. I do not think 
this will be a walk in the park in terms of United States-
Israel relations in the future.
    But I don't think he wants to go that way. And he said 
publicly it would be wrong for him to go that way, and this is 
one of his biggest regrets when he was in power in the 1990s.
    Mr. Ellison. So Mr. Asali, do you have any views on the 
same question I just put to Mr. Makovsky? So let me just 
tighten it up.
    If Mr. Netanyahu is the Prime Minister, and given some of 
the things he is reported to have said--and I can't say he said 
them to me, so I don't know if he said them or not, I just know 
what I read--how does the position that he hasn't affirmed the 
two-state solution square with the U.S. policy embracing the 
two-state solution?
    Dr. Asali. Well, I think I discussed this earlier about 
having two elections that matter. One of them was the election 
in the United States where President Obama is clearly committed 
to a two-state solution, and his administration is. And there 
is no doubt in my mind that the agenda of the United States is, 
should I say carries more weight than a local agenda anywhere 
when it comes to discussions about international interests.
    I imagine that Mr. Netanyahu would have to adjust his 
thinking or his campaign rhetoric or his previous position to 
come to some terms with the President of the United States if 
he is going to have any relations that are meaningful.
    Mr. Ellison. And Ms. Dunne, could you offer some views on 
some of the comments that Mr. Netanyahu has said, reported in 
the press? Again, I haven't talked to him, so I don't know if 
he said this, but he reportedly said he wasn't in favor of 
negotiating land for peace with Syria on the Golan. Are you 
familiar with those comments?
    Ms. Dunne. Actually, I am probably less an expert on 
Netanyahu's statements than Mr. Makovsky.
    Mr. Ellison. Well, let us go back to Mr. Makovsky, then.
    Mr. Makovsky. Like, here is welcome to the Middle East, you 
know.
    Mr. Ellison. Right.
    Mr. Makovsky. Because Mr. Netanyahu said that, and he went 
up to the Golan Heights when he said it.
    But the same Mr. Netanyahu, through a cosmetics executive 
by the name of Ronald Water, in 1998 actually cut a back-door 
deal. Well, it was awaiting a signature. And it was a fellow 
named Ariel Sharon who was then his Foreign Minister who 
squashed it.
    I think there is speculation in Washington and a lot of 
capitals that Mr. Netanyahu, if he is going to surprise us, 
will surprise us on the Syria track because there the issues 
are much more clear-cut. Given what was said before about Iran 
and Hezbollah, the regional benefits, the biggest cheerleaders 
in Israel for talks with Syria are the Israeli military.
    And given his track record in 1998 and the fact that Mr. 
Sharon tragically is not around to stop it, I don't think we 
could rule out that what Mr. Netanyahu said on the campaign 
trail and what he does in office may be two separate things.
    Mr. Ellison. Am I all done, Mr. Chairman? Okay.
    Now, we have now a three-state situation, not a two-state. 
What position should the United States take regarding 
Palestinian unity talks?
    I mean, one of the interesting things that is going on here 
is that if the United States or Israel's--I mean, if Mr. 
Mahmoud Abbas said I will sign any document you put in front of 
me, he still couldn't speak for all the Palestinian people. 
What does that mean, going forward? Ms. Dunne, do you care to 
offer a view on that?
    Ms. Dunne. Thank you, Congressman. I think you have raised 
an extremely important point, Congressman, that this lack of 
Palestinian unity, lack of unified leadership is a serious 
problem moving forward.
    I am not an advocate of direct U.S. engagement with Hamas, 
which we consider to be a terrorist organization. But I do 
think the United States has become gradually more supportive of 
efforts by Egypt, for example, to get Fatah and Hamas talking 
to each other, and to try to work out some sort of unified 
arrangement.
    There is the possibility of some kind of a technocratic 
type of Palestinian Government, or a government that would not 
bring senior leaders of Hamas into major positions.
    Probably some kind of arrangement like this needs to be 
worked out so that there can be a restoration of some semblance 
of connection or unity between the West Bank and Gaza once 
again and so that the Palestinians eventually can move toward 
elections, hopefully under a situation where there is a much 
more hopeful prospect for realization of the two-state solution 
and so forth.
    But all of this is going to take some time. And the United 
States, I also agree with what Ms. Pletka said in terms of the 
United States not really being able or being very good at 
getting in and trying to re-engineer Palestinian politics 
directly.
    Mr. Ellison. Mr. Asali, do you want to talk on this?
    Dr. Asali. Yes, thank you. This and many other issues have 
really been dealt with in our long document, and I recommend 
for people who have time to read it.
    I think the idea that a unity government that would repeat 
the Mecca Agreement that would be rejected by the international 
community is a non-starter. We do not want to have a 
Palestinian Government again in a position where it is in its 
entirety rejected by the international community.
    What can be done, and what is being considered as far as I 
know, is what is called a national accord government, whereby 
you have individuals who are supported by Fatah or Hamas or 
whatever, who would be on that, who would serve on that 
government without direct participation, either Fatah or Hamas, 
as partisans. Which would have two assignments. One is work on 
the relief and reconstruction business; two is prepare for 
elections.
    I think this is not an entirely bad idea. I think it is 
something that most people can live with. And I think this is 
something that the Egyptians are working very hard to put 
together. We will see how this jells in the next few days in 
Cairo. And I think that the United States has to commit itself 
to the idea that a two-state solution is appropriate; that 
elections to validate whatever agreement that eventually are 
subjected to the Palestinian people through negotiations, is 
the way to go.
    If that is acceptable, then we can make progress, I think.
    Mr. Ellison. What progress can we make in terms of opening 
up the crossings? As I understand from things I have read from 
UNRWA, there is about 120 trucks going through the Karni 
Crossing now, and they need about 700 a day.
    Dr. Asali. Yes.
    Mr. Ellison. What can be done to get that, the aid flowing 
to the degree that it needs to be? Mr. Asali, do you want to 
address it?
    Dr. Asali. First off, I just want to, I want to say that 
these are the statistics, the accurate statistics that all of 
us have. And I think there is, you know, with all due respect, 
there is a problem still with delivering these trucks. And it 
is all tied into the security issues or the explanation that it 
is a security issue.
    We said there are two separate issues that have to be dealt 
with immediately. One is the humanitarian relief. You cannot 
have people not have enough to eat or drink, or have their 
daily needs, day-to-day life, hospital, et cetera. You cannot 
have that, and accept it, and accept any kind of political 
explanation for that. Those kinds of things have to be dealt 
with with these kinds of organizations that we talked about: 
UNRWA, CHF, et cetera, et cetera. All of them have to have 
enough.
    And they have the statistics. They know how many trucks are 
needed. And the materials that Israel would let go through. All 
these things have to be done, and done quickly.
    The other is reconstruction.
    Mr. Ellison. Last one. Mr. Makovsky, if we, if Israel could 
open up those Karni Crossings, and if they had the scanning 
material that they needed to make sure there was no contraband 
coming in, wouldn't that make the security issue on the border 
easier? Because then you could assume that, you know, any non-
humanitarian goods-and-service-type stuff in those tunnels is 
probably up to no good.
    Mr. Makovsky. I think you raise a very good point. Once you 
make the distinction between, that it be clear that anything 
that goes through the tunnels is patently illegal, I think that 
is a very good idea.
    I just think the Palestinian Authority should be the one 
manning those crossing points to get the credit. But I 
certainly believe humanitarian assistance, which Israel says it 
is doing, that whatever can be done is intensified.
    Mr. Ackerman. Unless anybody has an immediate solution to 
the problem in the Middle East and the funding, this committee 
will be adjourned.
    [Whereupon, at 11:43 a.m., the subcommittee hearing was 
adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


 Material Submitted for the Hearing Record<greek-l>Hearing notice deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                              ----------                              

<greek-l>Hearing minutes deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                              ----------                              
<greek-l>Statement from ADC deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
